Fiscal Year 2001 (First Half) | Federal Trade Commission
Skip navigation
Main Menu Search
Utility menuContact
Stay Connected
Privacy Policy
FTC en español
Search form
Search
Main Menu
About the FTCWhat We DoEnforcement Authority
Our HistoryFTC Moments
Send Us Your Moment
Our Seal
Centennial Dinner & Symposium
Oral Histories
FTC Minutes: The Early Years
Building Images
CommissionersEdith Ramirez
Julie Brill
Maureen K. Ohlhausen
Joshua D. Wright
Terrell McSweeny
Bureaus & OfficesBureau of Competition
Bureau of Consumer Protection
Bureau of Economics
Office of Congressional Relations
Office of Equal Employment Opportunity
Office of International Affairs
Office of the Executive Director
Office of the General Counsel
Office of Policy Planning
Regional Offices
Office of Administrative Law Judges
Office of Public Affairs
Office of the Secretary
BiographiesBureau and Office Directors
Former Commissioners
Former Bureau and Office Directors
BudgetsFinancial Documents
Other Financial Information
Performance
Office of Inspector GeneralScam Alert
What You Need to Know About the Office of the Inspector General
Reporting Waste, Abuse or Mismanagement
Whistleblower Protection
OIG Audits and Evaluations
OIG Investigations
OIG Reading Room
Notice Concerning Nondisclosure Policies, Forms, or Agreements
Contact the OIG
FOIAAbout the Privacy Act
FOIA Reading Rooms
FOIA Request
Fee Regulations
Freedom of Information Act Contacts
Frequently Asked Questions (FAQ's)
Links
Table of Contents
Exemptions
Careers at the FTCTypes of Jobs at the FTC
The FTC Benefits
Diversity
News & EventsPress Releases
Commission Actions
Media ResourcesConsumer Finance
Mergers and Competition
Mobile Technology
The Do Not Call Registry
Tools for Consumers
Truth In Advertising
Protecting Consumer Privacy
Identity Theft and Data Security
Military Consumer Protection
Events CalendarAll Events
Weekly Calendar
Weekly Calendar Archive
Speeches
Audio/VideoFeatured Videos
FTC Events
For Consumers
For Business
En Español
Social MediaFTC Twitter Chats
General Social Media Chats
Tweeting FTC Workshops
BlogsCompetition Matters
Tech@FTC
Commenting Policy
EnforcementCases and ProceedingsCase Document Search
Refunds
Commission Decision Volumes
Closing Letters and Other Public Statements
Petitions to Quash
Adjudicative Proceedings
Premerger Notification ProgramStatute, Rules and Formal Interpretations
Form and Instructions
Informal Interpretations
Early Termination Notices
Current Thresholds
Filing Fee Information
Post-Consummation Filings (HSR Violations)
Medicare Act Filings
HSR Resources
Contact Information
First Time Filer?
Merger Review
Anticompetitive Practices
RuleseCFR
Rulemaking and Regulatory Reform Proceedings
Regulatory Review
Statutes
Consumer Sentinel NetworkMembers
Reports
Newsletters
Data Contributors
Criminal Liaison UnitResults
CLU Awards
Contact CLU
CLU Fact Sheet
PolicyAdvocacyAmicus Briefs
Advocacy Filings
Other Applications, Petitions, and Requests
Merits Briefs
Advisory Opinions
Cooperation Agreements
Federal Register Notices
ReportsPolicy Reports
US Submissions to OECD and Other International Competition Fora
Litigation Status Report
Magnuson-Moss Warranty Public Audit Filings
Webb-Pomerene Act Filings
Testimony
Public CommentsAdvanced Comment Search
Policy Statements
InternationalInternational Competition
International Consumer Protection
International Technical Assistance Program
International Cooperation Agreements
Competition & Consumer Protection Authorities Worldwide
International Fellows Program
Tips & AdviceFor Consumers
Business Center
Competition Guidance
I Would Like To...Submit a Consumer Complaint to the FTC
File a Comment
Get a Free Copy of My Credit Report
List a Number on the National Do Not Call Registry
Report An Antitrust Violation
File Documents in Adjudicative Proceedings
You are hereHome » About the FTC » Office of Inspector General » OIG Reading Room » Semi-Annual Reports to Congress » Fiscal Year 2001 (First Half)
Fiscal Year 2001 (First Half)
May 2001
June 22, 2001
The Honorable Timothy J. Muris
Chairman
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580
Dear Chairman Muris:
The attached report covers the Office of Inspector General's (OIG) activities for the first half of fiscal year 2001, and is submitted according to Section 5 of the Inspector General Act of 1978, as amended.
During this six-month reporting period, the OIG completed an audit of the FTC's fiscal year 2000 financial statements. I'm pleased to report that the agency once again received an unqualified opinion. The OIG also issued a management letter detailing various control weaknesses identified during the fiscal year 2000 financial statement audit. The auditors identified a large overpayment of rent during the period under review. Management has informed the OIG that they have initiated action to collect all monies incorrectly paid to the agency's landlord. The OIG also reviewed the practices employed by management to remove sensitive information from surplused hard drives. Weaknesses identified in this area are detailed in this report.
Along with all other federal Inspector Generals, my office was requested by Congress to review and report on agency practices related to the use of personally identifiable information, or "cookies,"and to determine whether the agency had paid for all the water services it was provided over the past ten years by the District of Columbia Water and Sewer Authority. Outcomes of these reviews are detailed in this report.
Finally, the OIG continues to work on a number of open investigations. One investigation was closed during the period. The work performed in this investigation resulted in a referral to the criminal division of the IRS.
As in the past, management has been responsive in attempting to address all OIG recommendations. I appreciate management's support, and I look forward to working with you in our ongoing efforts to promote economy and efficiency in agency programs.
Sincerely,
Frederick J. Zirkel
Inspector General
TABLE OF CONTENTS
TRANSMITTAL
INTRODUCTION
AUDIT ACTIVITIES Completed Audits Summary of Findings for Audit Reports Issued During the Current Period Audits in Which Field Work is Complete Audits in Which Planning Efforts are Underway
INVESTIGATIVE ACTIVITIES Investigative Summary Matters Referred for Prosecution
OTHER ACTIVITIES Significant Management Decisions Access to Information Internet Access Audit Resolution Review of LegislationContacting the Office of Inspector General
TABLES Table I: Summary of Inspector General Reporting Requirements Table II: Inspector General Issued Reports With Questioned Costs Table III: Inspector General Issued Reports With Recommendations That Funds Be Put To Better Use
INTRODUCTION
The Federal Trade Commission (FTC) seeks to assure that the nation's markets are competitive, efficient, and free from undue restrictions. The FTC also seeks to improve the operation of the marketplace by ending unfair and deceptive practices, with emphasis on those practices that might unreasonably restrict or inhibit the free exercise of informed choice by consumers. The FTC relies on economic analysis to support its law enforcement efforts and to contribute to the economic policy deliberations of Congress, the Executive Branch and the public.
To aid the FTC in accomplishing its consumer protection and antitrust missions, the Office of Inspector General (OIG) was provided five workyears and a budget of $656,400 for fiscal year 2001.
AUDIT ACTIVITIES
For this semiannual period, the OIG issued audits of the (i) controls over sensitive information existing on surplused computers; and (ii) FTC's FY 2000 financial statements and a companion management letter containing financial-related findings and recommendations resulting from the audit. The OIG also responded to two congressional requests. The first was to report on the collection and use of personally identifiable information ("cookies") by the FTC. The second request was to determine if the FTC had, over the past ten (l0) years, paid its water bills to the District of Columbia Water and Sewer Authority. The OIG also began fieldwork on a "peer review" of another Federal Office of Inspector General. Detailed information regarding these audits and reviews is provided below.
Completed Audits
Audit Report Number
Subject of Audit
AR 01-049
Review of FTC Policies and Practices to Remove Sensitive Information From Surplused Hard Drives
AR 01-050
Audit of the Federal Trade Commission's Financial Statements for the Fiscal Year Ending September 30, 2000
AR 01-050A
Management Letter to the FY 2000 Financial Statements
Letter Report
Agency Activities Related to the Use of Personally Identifiable Information or "Cookies"
Summary of Findings for Audit Reports Issued During the Current Period
In AR 01-049, Review of FTC Policies and Practices to Remove Sensitive Information From Surplused Hard Drives, the OIG reviewed controls over the release of information stored on the hard drives of "excessed" or "surplused" computers. Computers deemed to be outdated are made available to charitable institutions and school districts free of charge for word processing and Internet access. The objectives of this review were to (i) determine whether hard drives in surplus computers that have been relocated to the FTC's warehouse contain non-public and/or sensitive information; (ii) identify the level of sophistication required to obtain this information from the hard drives (prior to scrubbing); and (iii) determine whether procedures in place to scrub hard drives are complete and universally performed on all computer hard drives.
The OIG found that improvements are needed in the procedures followed by agency staff to scrub the hard drives before releasing them. In a sample of 26 hard drives contained in computers ready for release outside the agency, the OIG found that scrubbing procedures were not performed on five, leaving easily accessible files and internal systems data intact, including password files and case-specific files such as subpoenas. In addition, another five hard drives scrubbed using an older erasure technique also contained accessible information. This latter finding indicates that hundreds of computers that have already been released to schools and nonprofit agencies could potentially contain proprietary and/or Privacy Act information. The OIG also obtained a news article that reported on problems within the Washington DC school system with respect to missing computers donated by Federal agencies. In short, the schools could not provide assurances that only educational institutions had custody of the computers donated to them.
The methods of data recovery performed by the OIG required basic computer hardware familiarity, tools and skills, but no "high-end@ technologies or advanced training. The hardware configuration used during testing requires knowledge that the average person may not possess. However, supporting information is generally freely available on the Internet. If the hard drives as sampled were already installed in a computer with a working operating system, the level of knowledge needed to find recoverable files would decrease significantly - simply installing recovery software and running the program would reveal the files.
Given the vulnerability and expense of the "surplus-donation" program, the OIG believes that the agency would be better served by destroying hard drives prior to donating the computers. With the money saved, the agency should consider installing new drives purchased in bulk, with the same capacity as those destroyed. Alternatively (and at a minimum), management should formalize policies and procedures to ensure uniformity and completeness of the data erasure and re-test all Apurged" hard drives for data accessibility. Management has agreed to formalize its data erasure procedures and re-test all hard drives in storage.
In AR 01-050, Audit of the Federal Trade Commission's Financial Statements for the Fiscal Year Ending September 30, 2000, the objective was to determine whether the agency's financial statements present fairly the financial position of the agency. The statements audited were the Balance Sheets as of September 30, 2000 and 1999, and the related Statements of Net Cost, Statements of Changes in Net Position, Statements of Budgetary Resources, Statements of Financing, and Statements of Custodial Activity for the years then ended. This is the fourth consecutive year that the FTC has undertaken a financial statement audit. The agency again received an unqualified opinion, the highest opinion given by independent auditors.
The FY 2000 audited statements provide insight into the mission and operations of the Federal Trade Commission. The FTC had total assets of $74.8 million and $115.5 million as of September 30, 2000 and 1999, respectively. Approximately $48.4 million and $44.4 million of the 2000 and 1999 assets, respectively, were funds collected or to be collected for consumer redress. Another $0.5 million in 2000 and $26.6 million in 1999 represent undisbursed Hart-Scott-Rodino (HSR) premerger filing fees, and the remainder represented fund balances in appropriated accounts, account receivables and net capital assets.
The gross cost of operations during the 2000 fiscal year was approximately $130.1 million, a 10.7 percent increase over 1999. The majority of this increase resulted primarily from increased costs associated with various Consumer Protection Mission initiatives. Of the $130.1 million, $125.3 million was funded through budget authority. The remaining $4.8 million represents costs which will be funded in a future period. During FY 2000, expenses for salaries and related benefits totaled $88.7 million, or 68.2 percent, of the total expenses incurred. Lease space rental amounted to $11.0 million, or 8.5 percent, and the remaining $30.4 million, or 23.3 percent, included travel, facility maintenance, utilities, Y2K compliance, depreciation, future funded expenses, and other items. This supported 985 staff-years which were employed in fulfilling the FTC's mission.
Several financing sources were received which funded these expenses, including HSR premerger filing fees, reimbursements received from other government agencies, prior-year unobligated carryover amounts, and imputed revenue to cover unfunded benefits. The FTC did not receive amounts from the general fund of the Treasury or additional funding from transfers from other agencies in FY 2000. Also in FY 2000, the agency received $2.6 million for the Y2K Contingent Emergency Fund in accordance with the Omnibus Consolidated and Emergency Supplemental Appropriation Act. Only $70 thousand of this amount remained unexpended at year end. The accompanying pie chart details the percentages of these various financing sources.
During FY 2000, $106.9 million in fees were collected under the premerger notification program as required by the HSR Act. This was a $9.4 million increase over the previous year fee collection of $97.5 million. Fee collections, including carryover fees from prior years, funded 97 percent and 86 percent of agency operations in 2000 and 1999, respectively. The FTC collects a filing fee from each acquiring business entity that files a Notification and Report form transaction. The $45,000 fee, which is set by law, is divided equally between the FTC and the Antitrust Division of the Department of Justice (DOJ).(1) The amounts collected for DOJ are shown as nonexchange revenue on the Statement of Custodial Activity (SCA). (2)
The Required Supplementary Information disclosure identifies the amount of FTC funds going to other Federal agencies for rent, retirement benefits and other services. In FY 2000, the agency provided over $32.8 million to other federal agencies for the provision of these items.
In the Management Letter (AR 01-050A) accompanying the FY 2000 audited financial statements, the OIG followed up on agency actions to address findings made in the prior year audit and identified additional areas where improvement is possible. The OIG noted improvements in 11 of the 12 areas identified in the prior year (1999) findings.
The lone area where the agency's performance has digressed over the prior year involved interest penalties, e.g., amounts paid to vendors as a result of the late submission of invoices. These penalties have increased 333 percent over the prior year, from $4,587 to $19,859, after three years of steady decline. The OIG identified 13 vendors that received between $536 and $1844 in interest penalties in FY 2000, totaling $12,418, or 63 percent of the total penalty amount. The OIG provided the names of the contracting officer's technical representatives (COTR) associated with these 13 vendors to management for follow up. Interest penalties incurred as a result of late payments are included as part of the funds put to better use in Table III of this report.
In the current year, the OIG identified six findings with recommendations for improvement. The most significant of these involve agency overpayment of rent to the General Services Administration.
The monthly rent billing from GSA is charged directly against FTC's Treasury account through the On-line Payment and Collection System (OPAC). GSA provides a bill detailing the charges to FTC's Administrative Services Office (ASO). Based on the auditors' discussions with ASO managers and the examination of leases and GSA billing documentation, the OIG found that the agency overpaid rent at three locations during FY 2000 totaling $189,202. These overpayments are reflected in Table II of this report as questioned costs. Agency administrative personnel have taken steps to collect the overpayments from GSA.
To guard against such overpayments in the future, the OIG recommended that agency administrative staff more thoroughly review all monthly rent bills to verify that the proper rent is being charged, and prepare a schedule of anticipated monthly billings at the beginning of the fiscal year based on the lease or occupancy agreement terms. Any discrepancies found should be resolved in a timely manner.
In addition to the above-identified audits, the OIG, pursuant to the Treasury and General Government Appropriations Act, General Provisions, Section 646, (Public Law No. 106-554), submitted a report to Congress that discusses pertinent agency activities relating to the collection of "personally-identifiable information" from the visiting public on agency websites. Internet sites have the capability to capture data without the direct knowledge of the visitor through the use of "cookies." A "cookie" is a small text file that a website can place on a visitor's hard drive in order to collect information about his/her activities on the site. The "cookie" transmits this information back to the website's computer.
The OIG found no evidence to indicate that the FTC is collecting personally-identifiable information through the use of "cookies" to track use patterns and other select user information, nor has the agency entered into agreements with third parties to obtain such information. However, the OIG did find links from FTC Web pages to external sites that do utilize "cookies." Due to the seamless transition from the FTC website to these and other sites, and given the similar nature of the subject matter, visitors may not be aware that they have left the FTC domain. Consequently, the OIG believes a disclosure is necessary to warn visitors that some external sites reached through an FTC-provided hyperlink may collect personally-identifiable information about them. Management has added language alerting visitors to this possibility.
Audits in Which Field Work is Complete
Audit Report Number
Subject of Audit
AR 01-048
Audit of FTC Telecommunications Billing Procedures, Practices, Controls and Expenditures. The overall objective of this review was to identify vulnerabilities pertaining to the oversight and payment of the agency's telecommunication services. To address this overall objective, the OIG (i) assessed whether the agency is paying only for the services it uses and/or the hardware/equipment it employs; (ii) reviewed system controls that are in place to monitor employee use of telephones, cell phones, and pagers, and determined whether these controls work effectively; (iii) analyzed whether the agency is using, given its service history, optimal service plans (for local, long distance, pagers and cell phones) to efficiently and effectively meet its needs; and (iv) documented the role that GSA and other third parties perform in assisting the FTC in implementing its telecommunications program and review the cost and the effectiveness of this assistance. An exit conference with management was held to discuss the report's findings and recommendations.
Audits in Which Planning Efforts are Underway
Audit Report Number
Subject of Audit
AR 01-XXX
Evaluation of FTC's Implementation of the Government Information Security Reform Act (GISRA). On October 30, 2000, the president signed into law the FY 2001 Defense Authorization Act (PL 106-398) including Title X, subtitle G, "Government Information Security Reform." The Act seeks to ensure proper management and security for the information resources supporting Federal operations and assets. The Act requires among other things (i) annual agency program reviews; (ii) annual IG evaluations; and (iii) agency reporting to OMB the results of IG evaluations.
The objective is to evaluate FTC's compliance with Federal information resource security requirements, the quality of its electronic information systems security and the quality of procedures and processes used to protect vital and sensitive agency electronic information.
To address this objective, the OIG will consider whether (i) FTC-IT systems are appropriately protected from unauthorized access, and have adequate back up and audit trails; (ii) agency systems administrators conduct adequate, periodic security hardware and software systems testing, (iii) FTC maintains adequate internal controls to prevent a compromise of electronic information; (iv) security breaches discovered are reported, including their severity and their frequency; (v) the FTC has complied with laws and regulations identified as being significant to maintain electronic information security; and (vi) the agency is using its financial resources for IT security in an efficient and effective manner.
The OIG will use guidance developed by the National Institute of Standards and Technology (Security Assessment Framework), GAO (the Federal Information System Controls Audit Manual), and OMB ( A-130, Management of Federal Information Resources) in performing our evaluation.
AR XX-XXX
Audit of Hart Scott Rodino Fee Processes. Beginning in February 2001, significant changes were made to the filing requirements of the HSR Antitrust Improvements Act. Chief among these changes are an increase from $15 million to $50 million in the transaction value threshold over which companies must file premerger notification forms, as well as the implementation of a new tiered fee structure, with companies paying $45,000 for transactions valued between $50 and $100 million, $125,000 for transactions valued at $100 million to less than $500 million, and $280,000 for transactions valued at $500 million or more. Transactions valued at less than $50 million are not required to file. The tiered fee structure replaces a uniform filing fee schedule and is projected to result in the collection of over $100 million in revenue during FY 2001. The new fee that the acquiring company must pay is based on the value of the voting securities or assets of the transaction.
The objective of this review will be to determine whether systems to collect and report on tiered filing fees are operating effectively.
AR XX-XXX
Audit of FTC Financial Statements for Fiscal Year 2001. The overall objective of this financial audit is to determine whether the agency's financial statements present fairly the financial position of the agency. The statements to be audited are the Balance Sheet as of September 30, 2001, and the related Statement of Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources, Statement of Financing, and Statement of Custodial Activity for the year then ended. This will be the fifth annual financial statement audit performed by the OIG; the first four audits resulted in unqualified opinions.
Audit fieldwork planned for this period include a preliminary test of internal and management controls over the accumulation and reporting of financial information, and compliance with laws and regulations that have a material effect on the agency's financial statements.
INVESTIGATIVE ACTIVITIES
The Inspector General is authorized by the IG Act to receive and investigate allegations of fraud, waste and abuse occurring within FTC programs and operations. Matters of possible wrongdoing come to the OIG in the form of allegations or complaints from a variety of sources, including FTC employees, other government agencies and the general public.
Reported incidents of possible fraud, waste and abuse can give rise to administrative, civil or criminal investigations. OIG investigations might also be initiated based on the possibility of wrongdoing by firms or individuals from outside the agency when there is an indication that they are or were involved in activities intended to improperly affect the outcome of a particular agency enforcement action. Because this kind of wrongdoing strikes at the integrity of the FTC's consumer protection and antitrust law enforcement missions, the OIG places a high priority on investigating it.
In conducting criminal investigations during the past several years, the OIG has sought assistance from, and worked jointly with, other law enforcement agencies, including other OIG's, the Federal Bureau of Investigation (FBI), the U.S. Postal Inspection Service, the U.S. Secret Service, the U.S. Marshal's Service, the Internal Revenue Service, Capitol Hill Police, as well as and state agencies and local police departments. The OIG has also provided assistance to, and worked with foreign government law enforcement agencies, including the Royal Canadian Mounted Police and the Canada Customs and Revenue Agency.
Investigative Summary
During this reporting period the OIG received 47 complaints of possible wrongdoing. Of these 47 complaints, a total of 27 related to matters that the OIG determined were the responsibility of FTC program components. Consequently, the OIG referred these matters to appropriate FTC components for disposition, while another three (3) complaints were referred to other law enforcement agencies for review and/or action.
Of the seventeen (17) remaining complaints, the OIG decided to close sixteen (16) of them after a careful review of the allegation or after conducting preliminary investigative reviews. Consequently, the OIG decided to open one (1) investigation which was subsequently referred to another criminal law enforcement agency for action.
During this reporting period, the OIG closed one (1) investigation opened during this period and continued to work on investigations opened in prior reporting periods. The latter primarily involved cases of alleged FTC leaks to the media and the embezzlement of millions of dollars by a court-appointed receiver.
While reviewing bank records in an ongoing investigation, the OIG learned of a possible criminal tax fraud by another party who associated with the subject. Accordingly, the OIG closed this related investigation after consulting with a federal prosecutor and referring its findings to the IRS Criminal Investigation Division.
Following is a summary of the OIG's investigative activities for the six-month period ending March 31, 2001.
Cases pending as of September 30, 2000
4
Plus: New cases
+1
Less: Cases closed
-1
Cases pending as of March 31, 2001
4
Matters Referred for Prosecution
During this reporting period, the OIG continued to work with a prosecutor in California on a criminal case involving a multi-year embezzlement of funds in a number of FTC cases by a court-appointed receiver .
OTHER ACTIVITIES
Congressional Request Regarding Payment of Water/Sewer Bills - Pursuant to Section 43-1552(b) of the D.C. Code, the OIG provided information to the House and Senate Appropriations Committees relating to the promptness of payments to the District of Columbia Water and Sewer Authority (WASA) for water and sewer services provided to offices of the Federal Trade Commission located in the District of Columbia.
The FTC does not pay its water and sewer bills directly to WASA. Rather, an amount to cover these charges is included in the monthly "rental" fee paid directly to the General Services Administration (GSA). While GSA did confirm that the FTC's annual rental fee covers water and sewage costs, it was nevertheless unable to provide the OIG with any assurances that it had, in turn, paid either Treasury or D.C. WASA for water used by the FTC. GSA continues to investigate if it paid for FTC water and sewer usage in its headquarters building at 600 Pennsylvania Avenue.
The FTC also occupies space in a privately-owned building in Washington DC. Water and sewer invoices are received by the owner and paid directly to the D.C. WASA. Based on discussions with the property manager and after review of the latest water and sewer invoice, the landlord appears to have paid all water bills on time and no amounts relating to water and sewer charges are in dispute.
Agency Compliance with Foreign Conferences Reporting Requirement - To assist another OIG in assessing compliance with a government-wide foreign travel reporting requirement, OIG staff met with representatives from the Bureaus of Consumer Protection, Competition and Economics to discuss the bureaus' procedures for reporting such travel to the State Department. Based on these discussions, the OIG learned that the FTC was not fully complying with this reporting requirement. Agency staff relied solely on State Department cables to communicate much of the required information to the pertinent offices within the Department. Staff stated that they were unaware of a formal reporting requirement.
The OIG provided staff with the State Department Form (DS-1977) that should be completed prior to and within 30 days following travel to foreign conferences. Bureau staff informed the OIG that they will report all such trips in the future on DS-1977.
Peer Review Activities - Federal Offices of Inspector General are required by the IG Act to have a peer review performed of their organization once every three years. These reviews are to be performed only by federal auditors. A committee of the Executive Council on Integrity and Efficiency (ECIE) schedules the review to ensure that resources are available to perform them and that OIG's do not conduct reviews of one another.
Against this background, the FTC OIG began a peer review of the OIG at the Peace Corps. The objectives of a peer review are to determine whether an effective internal quality control system has been established in the office and established policies, procedures and applicable government auditing standards are being followed.
Significant Management Decisions
Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any significant management decision, such disagreement must be reported in the semiannual report. Further, Section 5(a)(11) of the Act requires that any decision by management to change a significant resolved audit finding must also be disclosed in the semiannual report. For this reporting period there were no significant final management decisions made on which the IG disagreed, and management did not revise any earlier decision on an OIG audit recommendation.
Access to Information
The IG is to be provided with ready access to all agency records, information or assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the IG to report to the agency head, without delay, if the IG believes that access to required information, records or assistance has been unreasonably refused, or otherwise has not been provided. A summary of each report submitted to the agency head in compliance with Section 6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.
During this reporting period, the OIG did not encounter any problems in obtaining assistance or access to agency records. Consequently, no report was issued by the IG to the agency head in accordance with Section 6(b)(2) of the IG Act.
Internet Access
The OIG can be accessed via the world wide web at www.ftc.gov/oig/oighome.htm. A visitor to the OIG home page can download recent (1996 - 2000) OIG semiannual reports to Congress, the FY 1998, FY 1999 and FY 2000 CFO Act audits and other program and performance audits issued beginning in FY 1999, and can browse through a list of audit reports issued prior to FY 1999 and order them via an e-mail link to the OIG. In addition to this information resource about the OIG, visitors are also provided a link to other federal organizations and offices of inspector general.
Audit Resolution
As of the end of this reporting period, all OIG audit recommendations for reports issued in prior periods have been resolved. That is, management and the OIG have reached agreement on what actions need to be taken.
Review of Legislation
Section 4 (a) (2) of the IG Act authorizes the IG to review and comment on proposed legislation or regulations relating to the agency or affecting the operations of the OIG. During this reporting period, the OIG reviewed and provided supporting comments on a number of bills intended to amend the IG Act . During this period, the OIG also provided comments to GAO on proposed changes to the government auditing standards on independence.
Contacting the Office of Inspector General
Employees and the public are encouraged to contact the OIG regarding any incidents of possible fraud, waste or abuse occurring within FTC programs and operations. The OIG telephone number is (202) 326-2800. To report suspected wrongdoing, employees and the public should call the OIG's chief investigator directly on (202) 326-2581. A confidential or anonymous message can be left 24 hours a day.
The OIG is located in room 494 of the FTC Headquarters Building at 600 Pennsylvania Avenue, N.W., Washington, D.C. 20580. Office hours are from 8:30 a.m. to 6:00 p.m., Monday through Friday, except federal holidays.
TABLE I
SUMMARY OF INSPECTOR GENERAL
REPORTING REQUIREMENTS
IG Act Reference
Reporting Requirement
Page(s)
Section 4(a)(2)
Review of legislation and regulations
12
Section 5(a)(l)
Significant problems, abuses and deficiencies
2
Section 5(a)(2)
Recommendations with respect to significant problems, abuses and deficiencies
2-5
Section 5(a)(3)
Prior significant recommendations on which corrective actions have not been made
12
Section 5(a)(4)
Matters referred to prosecutive authorities
9
Section 5(a)(5)
Summary of instances where information was refused
11
Section 5(a)(6)
List of audit reports by subject matter, showing dollar value of questioned costs and funds put to better use
1
Section 5(a)(7)
Summary of each particularly significant report
2
Section 5(a)(8)
Statistical tables showing number of reports and dollar value of questioned costs
14
Section 5(a)(9)
Statistical tables showing number of reports and dollar value of recommendations that funds be put to better use
15
Section 5(a)(10)
Summary of each audit issued before this reporting period for which no management decision was made by the end of the reporting period
12
Section 5(a)(11)
Significant revised management decisions
10
Section 5(a)(12)
Significant management decisions with which the Inspector General disagrees
10
TABLE II
INSPECTOR GENERAL ISSUED REPORTS
WITH QUESTIONED COSTS
Number
Number Dollar Value
(in thousands)
Questioned Costs
Unsupported Costs
A. For which no management decision has been made by the commencement of the reporting period
0
0
0
B. Which were issued during the reporting period
1
189,202*
0
Subtotals (A + B)
1
189,202
0
C. For which a management decision was made during the reporting period
1
189,202
0
(i) dollar value of disallowed costs
1
189,202
0
(ii) dollar value of cost not disallowed
0
0
0
D. For which no management decision was made by the end of the reporting period
0
0
0
Reports for which no management decision was made within six months of issuance
0
0
0
* See AR 01-050A (page 1).
TABLE III
INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Number
Dollar Value
(in thousands)
A. For which no management decision has been made by the commencement of the reporting period
0
0
B. Which were issued during this reporting period
1
29,359
C. For which a management decision was made during the reporting period
0
0
(i) dollar value of recommendations that were agreed to by management
0
0
- based on proposed management action
0
0
- based on proposed legislative action
0
0
(ii) dollar value of recommendations that were not agreed to by management
0
0
D. For which no management decision has been made by the end of the reporting period
1
29,359
Reports for which no management decision was made within six months of issuance
0
0
Endnotes:
*See AR 01-050A (pages, 2, 20).
1. In FY 2001, a tiered fee structure was implemented, with fees ranging from $45,000 to $280,000, depending on the value of the voting securities or assets of the transaction.
2. The SCA is a required financial statement under Statement of Federal Financial Accounting Concepts (SFFAC) No. 2 for those Federal agencies that collect nonexchange revenues (e.g., taxes, duties, fines, and penalties) for the General Fund of the Treasury, a trust fund, or other recipient entities.
Utility menuContact
Stay Connected
Privacy Policy
FTC en español
About the FTC
What We Do
Our History
Commissioners
Bureaus & Offices
Biographies
Budgets
Performance
Office of Inspector General
FOIA
Careers at the FTC
News & Events
Press Releases
Commission Actions
Media Resources
Events Calendar
Speeches
Audio/Video
Social Media
Blogs
Enforcement
Cases and Proceedings
Premerger Notification Program
Merger Review
Anticompetitive Practices
Rules
Statutes
Consumer Sentinel Network
Criminal Liaison Unit
Policy
Advocacy
Advisory Opinions
Cooperation Agreements
Federal Register Notices
Reports
Testimony
Public Comments
Policy Statements
International
Tips & Advice
For Consumers
Business Center
Competition Guidance
I Would Like To...
Submit a Consumer Complaint to the FTC
File a Comment
Get a Free Copy of My Credit Report
List a Number on the National Do Not Call Registry
Report An Antitrust Violation
File Documents in Adjudicative Proceedings
Site Information
Privacy Policy
Website Policy
No FEAR Act
USA.gov
Accessibility
Digital Government Strategy
Open Government
Federal Trade CommissionHeadquarters:
600 Pennsylvania Avenue, NW
Washington, DC 20580Contact Us
Facebook
Twitter
YouTube
Stay Connected
Stay Connected with the FTC